August 21, 2008

CAROL A. REICH
MANAGER, PAYROLL

MIA HAN
MANAGER, COMPENSATION

SUBJECT: Audit Report – Federal Employees’ Retirement System Contribution Rates
         (Report Number FT-AR-08-011)

This report presents an issue regarding Federal Employees’ Retirement System (FERS)
contribution rates. We identified this issue during our audit of the fiscal year (FY) 2008
Postal Service Financial Statements – Eagan Information Technology and Accounting
Service Center (IT/ASC) (Project Number 08BM003FT001). Click here to go to
Appendix A for additional information about this audit.

Conclusion

The U.S. Postal Service did not use the correct FY 2008 FERS contribution rate for law
enforcement employees. Specifically, it did not implement a rate increase required by
federal regulations.

FERS Contributions for Law Enforcement Employees

Condition

   •    The Postal Service did not increase the FERS agency contribution rate from
        23.8 percent to 24.9 percent for law enforcement employees.

Cause

   •    Because the Postal Service does not have a formal policy or procedure to
        identify, evaluate, and implement FERS rate changes, employees unintentionally
        overlooked this rate change.

Criteria

   •    Office of Personnel Management (OPM), Benefits Administrative Letter, Number
        07-304, dated June 2007.
Federal Employees’ Retirement System Contribution Rates                        FT-AR-08-011



   •     Federal Register, Office of Personnel Management Federal Employees’
         Retirement System; Normal Cost Percentages, Volume 72, Number 109,
         June 7, 2007.

Effect

   •     The Postal Service underpaid its agency contributions for 1,863 FERS law
         enforcement employees by approximately $1.4 million from October 2007
         through May 2008.

   •     When formal policy and procedures do not exist, future rate changes may be
         undetected.

   •     If this issue had remained undetected, we project that the Postal Service would
         underpay over $4.5 million during the next 2 years. Click here to go to
         Appendix B for our calculation of total underpayments.

Auditors’ Comments

Management stated they plan to implement a software change request by August 30,
2008, and forward the underpaid contributions to the OPM by September 30, 2008.

Recommendations

We recommend the Manager, Payroll:

   1. Revise the Postal Service contribution rate for law enforcement employees
      covered by the Federal Employees’ Retirement System in the retirement
      categories of 9 and B from 23.8 percent to 24.9 percent.

   2. Calculate the underpaid contributions from October 2007 to the present and
      forward the additional funds to the Office of Personnel Management.

We recommend the Manager, Payroll, and the Manager, Compensation:

   3. Develop formal policies and procedures to identify, evaluate, and implement
      future increases or decreases in the contribution rate for employees covered by
      the Federal Employees’ Retirement System.

Management’s Comments

Management agreed with the finding and recommendations and will implement the rate
change by August 30, 2008. Management also calculated underpaid contributions and
will notify the OPM and submit payment by September 30, 2008. Finally, the Postal
Service developed formal procedures to implement future rate changes and confirmed,




                                                  2
Federal Employees’ Retirement System Contribution Rates                    FT-AR-08-011



in separate correspondence, that the new procedures were effective July 16, 2008.
Click here to go to Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report, and the corrective actions
should resolve the issues identified in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc: Anthony J. Vegliante
    H. Glen Walker
    Vincent H. DeVito, Jr.
    Jo Ann E. Mitchell
    Stephen J. Nickerson
    Ronald D. Langevin, Jr.
    Katherine S. Banks




                                                  3
Federal Employees’ Retirement System Contribution Rates                                        FT-AR-08-011



                         APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The OPM administers the FERS benefit. The Postal Service’s IT/ASC in Eagan,
Minnesota, is responsible for the calculation, disbursement, and reporting of Postal
Service contributions under FERS. The Postal Service has four categories of FERS
employees: two categories are for regular employees and two are for employees
eligible for law enforcement pay. Employees eligible for law enforcement pay are
categorized as:

    •   9 – FERS law enforcement employees hired after December 31, 1983.

    •   B – Regular Civil Service Retirement System employees who elected to convert
        to FERS between July 1 and December 31, 1987.

OPM increased the agency contribution rate for FERS law enforcement employees from
23.8 percent to 24.9 percent effective the first pay period beginning on or after
October 1, 2007 (which was pay period 22, 2007, beginning on October 13, 2007).1
The rate increase was published in the Federal Register2 and allowed for appeals to be
filed by December 7, 2007. We confirmed that the Postal Service did not file an appeal.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this portion of our audit of the FY 2008 Postal Service Financial
Statements – Eagan IT/ASC was to verify the FY 2008 FERS contribution rate.

To accomplish our objective, we obtained the most recent OPM retirement contribution
rates and determined that the only applicable revision was for FERS law enforcement
employees. For pay period 22, 2007, through pay period 11, 2008, we obtained
information on basic salary, law enforcement pay, and locality pay for law enforcement
employees with retirement categories 9 and B. We independently calculated Postal
Service contributions using the most recent FERS law enforcement employee
contribution rate and compared the results to actual Postal Service contributions
submitted to OPM to determine whether differences existed.

We conducted this performance audit from May through August 2008 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for

1
 Office of Personnel Management, Benefits Administrative Letter, Number 07-304, June 2007.
2
 Federal Register, Office of Personnel Management Federal Employees’ Retirement System; Normal Cost
Percentages, Volume 72, Number 109, June 7, 2007.




                                                     4
Federal Employees’ Retirement System Contribution Rates                                FT-AR-08-011



our finding and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials on July 16, 2008, and included
their comments where appropriate.

We relied on computer-generated data from the Postal Service’s Payroll System. To
validate the data, we traced the basic pay for selected employees from this system to
supporting documentation. Also, for all employees, we manually recalculated the FERS
contributions (at 23.8 percent) and compared the results to the computer-generated
data.

PRIOR AUDIT COVERAGE

  Report Title        Report         Final Report Date    Monetary          Report Results
                      Number                               Impact
Independent         FT-AR-07-013     September 20, 2007      $0      Aggregate base salaries for
Report on                                                            the Civil Service Retirement
Withholdings                                                         Offset employees on the
and                                                                  Supplemental Semiannual
Contributions for                                                    Headcount Report did not
Health Benefits,                                                     accurately reflect the actual
Life Insurance,                                                      salaries paid for the reporting
Retirement, and                                                      period. The OIG made no
Employee                                                             recommendations.
Headcount Data
Independent         FT-AR-06-017     September 26, 2006     $0       Aggregate base salaries for
Report on                                                            the Civil Service Retirement
Withholdings                                                         Offset employees on the
and                                                                  Supplemental Semiannual
Contributions for                                                    Headcount Report did not
Health Benefits,                                                     accurately reflect the actual
Life Insurance,                                                      salaries paid for the reporting
Retirement, and                                                      period. The OIG made no
Employee                                                             recommendations.
Headcount Data




                                                  5
Federal Employees’ Retirement System Contribution Rates                                                  FT-AR-08-011



              APPENDIX B: ACTUAL AND PROJECTED UNDERPAYMENTS


    Actual Underpayments
     For pay period 22, 2007, through pay period 11, 2008:
           (Basic Pay3 × 24.9%) – (Basic Pay × 23.8%)                                                $1,391,592

    Projected Underpayments
     Average actual underpayment: $1,391,592 ÷ 16 pay periods = $86,974.50
     Projected underpayment for 2 years: $86,974.50 × 52 pay periods                                 $4,522,674

    Total Actual and Projected Underpayments                                                         $5,914,266




3
 Basic pay includes basic salary, law enforcement pay, and locality pay; all basic pay is subject to retirement
contributions.




                                                           6
Federal Employees’ Retirement System Contribution Rates    FT-AR-08-011



                       APPENDIX C: MANAGEMENT’S COMMENTS




                                                  7
Federal Employees’ Retirement System Contribution Rates   FT-AR-08-011




                                                  8
